         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
Management of the Tank Farm
Recovery Act Infrastructure
Upgrades Project




OAS-RA-L-11-03                       February 2011
DOE F 1325.8
(08-93)
United States Government                                                               Department of Energy


Memorandum
        DATE:    February 9, 2011                                       Audit Report Number: OAS-RA-L-11-03
    REPLY TO
    ATTN OF:     IG-34 (A10RA043)
     SUBJECT:    Report on "Management of the Tank Farm Recovery Act Infrastructure Upgrades Project"
           TO:   Manager, Office of River Protection

                 INTRODUCTION AND OBJECTIVE

                 As part of the American Recovery and Reinvestment Act of 2009 (Recovery Act) the
                 Department of Energy (Department) awarded Washington River Protection Solutions (WRPS)
                 approximately $324 million to accelerate completion of infrastructure upgrades for the
                 Hanford Site's tank farms during the Fiscal Year (FY) 2009-2011 timeframe. These funds
                 were applied by the Department's Office of Environmental Management to the existing
                 contract with WRPS to manage the operations and construction activities necessary to store,
                 retrieve, treat, and dispose of the 53 million gallons of Hanford tank waste. Some of the major
                 activities included were to:

                    • Maintain and operate the 242-A Evaporator and 222-S Laboratory;

                    • Maintain safe and compliant operations of the tank farm infrastructure;

                    • Retrieve waste from the single-shell tanks and transfer it to the double-shell tanks; and,

                    • Plan and prepare for waste feed delivery to the Waste Treatment and Immobilization
                      Plant (WTP).

                 In light of the importance of these activities and the amount of funding involved, we initiated
                 this audit to determine whether the Department had used Recovery Act funds to achieve the
                 goals and objectives for tank farm infrastructure upgrades.

                 CONCLUSION AND OBSERVATIONS

                 Our review found that the Department selected projects for Recovery Act funding that
                 supported the goal of upgrading the tank farm infrastructure and waste feed delivery systems.
                 Additionally, the Department was on schedule to complete the Recovery Act upgrades by
                 September 30, 2011, as planned, and at less than the estimated costs. Due to a lack of contract
                 proposal detail, however, we were unable to verify whether all of the Recovery Act funded
                 work represented an acceleration of overall work scope.
                                Schedule and Cost Performance

Our review determined that WRPS was on schedule to complete the Recovery Act work scope
and had spent $22.4 million less than estimated for the work completed as of November 21,
2010. Specifically, according to WRPS's November 21, 2010, Contract Performance Report,
WRPS had completed $199 million of the total estimated work scope, at an actual cost of
$176.6 million. Our review of contract milestones specifically related to Recovery Act work
found that of 73 milestones, WRPS had completed 34 with 11 milestones being completed 30
or more days early. Of the remaining 39 milestone, 15 are also projected to be finished 30 or
more days early. Furthermore, WRPS projects that it will finish the current Recovery Act
work scope at approximately $9 million under budget. As a result, additional projects have
been added through contract modification to utilize the remaining Recovery Act funds.

                                     Tank Farm Upgrades

We found that the projects selected for Recovery Act funding supported the goal of ensuring
that infrastructure and waste feed delivery systems were upgraded. For example, several
upgrades will be made to the 242-A Evaporator. This facility is a critical component in the
operation of the double-shell tank system and the upgrades will help ensure continuity of
operations and reduce risks that could otherwise jeopardize retrieval and waste delivery
operations. The Office of Environmental Management had established the goal that work
performed by WRPS must help ensure that critical infrastructure needed to deliver waste feed
to WTP by 2019, was in place. Our review of individual project justifications determined that
the projects selected for Recovery Act funding addressed this goal.

                              Traceability of Individual Projects

Although the Recovery Act funded work was being delivered on schedule and under budget,
we were unable to verify that the use of these funds actually accelerated overall project
completion. Both the project interim baseline and WRPS's original contract proposal lacked
sufficient detail to allow us to differentiate between original project work scope and any new
work scope funded by the Recovery Act. For example, WRPS's contract proposal did not
always provide a detailed description of the tasks to be performed. Instead, much of the
proposal only contained a general description of the approach the contractor would take.
Additionally, ORP was only able to provide documentation showing shifting of project costs
from FY 2014 -2018 to FY 2009-2012, but could not show the specific project's work scope
associated with those costs. Without additional project descriptions and costs, management
could not support, and we were unable to determine whether the Recovery Act funded work
represented an acceleration of work called for in the project baseline or contract proposal.

Because the level of detail necessary to trace project costs as needed for the Recovery Act was
not foreseen when the original contract was awarded and cannot be objectively recreated at
this time, we did not make any specific suggestions or recommendations with regard to it.




                                       2
Since no formal recommendations are being made in this report, a formal response is not
required. We appreciate the cooperation of your staff and the various Departmental elements
that provided information or assistance.




                                       Daniel M. Weeber, Director
                                       Environment, Technology, and
                                          Corporate Audits Division
                                       Office of Inspector General

Attachment

cc: Assistant Director, Office of Risk Management, CF-80
    Team Leader, Office of Risk Management, CF-80
    Audit Resolution Specialist, Office of Risk Management, CF-80
    Audit Liaison, Office of Environmental Management, EM-4.1
    Audit Liaison, Office of River Protection




                                      3
                                                                                      Attachment


SCOPE AND METHODOLOGY

The audit was performed between August 9, and December 1, 2010, at the Department of
Energy's (Department) Office of River Protection (ORP) in Richland, Washington. The scope of
our audit included a review of the Tank Farm Recovery Act Infrastructure Upgrades Project. To
accomplish the objective of this audit, we:

    •    Obtained and reviewed laws and regulations relevant to the American Reinvestment
          and Recovery Act of 2009 (Recovery Act);

    •    Obtained and reviewed Department, ORP, and Washington River Protection Solutions
         (WRPS) policies and procedures related to Recovery Act;

    •    Reviewed findings from prior audits regarding Recovery Act activities;

    •    Reviewed the WRPS contract with the Department;

    •    Held discussions with Department and WRPS officials regarding Recovery Act
         activities involving tank farm infrastructure upgrades; and,

    •    Performed transaction testing for tank farm infrastructure upgrades transactions.

We conducted this performance audit in accordance with generally accepted Government audit
standards. Those standards require that we plan and perform the audit to obtain sufficient
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Because our review was limited, it would
not necessarily have disclosed all internal control deficiencies that may have existed at the time
of our audit. We also assessed performance measures in accordance with the Government
Performance and Results Act of 1993 and found that the Department had established
performance measures related to the use of Recovery Act funds for environmental management
projects. We did not rely upon computer processed data to accomplish our audit objective.

Management at the Department's Office of River Protection waived the exit conference.




                                                4
                                                       IG Report No. OAS-RA-L-11-03

                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

      Your comments would be appreciated and can be provided on the Customer Response Form.
